1

CERTIFICATE OF SERVICE
No.
Yoel Weisshaus,
Petitioner,
vs
Port Authority of New York and New Jersey,
Respondent.
Yoel Weisshaus deposes and states as true under the
laws prohibiting perjury:
1.

I am petitioner in this action.
On October 26, 2020, I effected service of the
following:
a. Petition for a writ of certiorari.
3.
I effected the foregoing service on the following
individual:
a. Kathleen Gill Miller, 150 Greenwich
Street, 24th Floor, New York, NY 10007,
attorney for the Port Authority of New York
and New Jersey,
4.
Service was effected by mailing three (3) copies
in a prepaid envelope that was sealed and
placed in the custody of the United States
Postal Service.
Brooklyn, NY
Dated:
October 26,20!
2.

eisshaus
PAUL HUEBNER

1
Qualified in Kings County
Commission Expires December 4,2022

